IN THE

SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2020

CYNTHIA LOZANO,

Petitione1·,
- V -

UNITED STATES OF AMERICA,

Respondent.

Proof of Service
I, David Zugman, do swear or declare that on this date, September 11, 2021, as
required by Supreme Court Rule 29 I have served the enclosed MOTION FOR
LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION FOR A WRIT OF
CERTIORARI on each party to the above proceeding or that party's counsel, and on
every other person required to be served, by depositing an envelope containing the
above documents in the United States mail properly addressed to each of them and
with first-class postage prepaid, or by delivery to a third-party commercial carrier
for delivery within 3 calendar days.
The names and addresses of those served are as follows:
I mailed an original and 10 copies of the instant petition for certiorari to
Scott Harris, Clerk
United States Supreme CourtOne First Street , N.E.
Washington, D.C. 20543
I served two copies of the above brief to the Solicitor General:
Elizabeth Prelogar,
Acting Solicitor General of the United States
Office of the Solicitor General
950 Pennsylvania Ave., NW

Washington, D.C. 20530-0001
4.

I provided an additional copy to Lozano;

5.
The above were delivered and deposited in the U.S. mails, first class postage
prepaid, at San Diego, California, on September 1j., 2021.
I the foregoing is true and correct.
Executed on September 13, 2021~ in sa9
Dated:

1j J>I2-/

/j/
David Zugman

ego, CA 92101.

